<html>
<title> - AMERICAN NGOS UNDER ATTACK IN MORSI'S EGYPT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                     AMERICAN NGOS UNDER ATTACK IN 
                             MORSI'S EGYPT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2013

                               __________

                           Serial No. 113-40

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

81-509 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Lorne W. Craner, president, International 
  Republican Institute (former Assistant Secretary for Democracy, 
  Human Rights and Labor)........................................     4
Mr. Charles W. Dunne, director, Middle East and North Africa, 
  Freedom House..................................................    13
Ms. Joyce Barnathan, president, International Center for 
  Journalists....................................................    28
Mr. Kenneth Wollack, president, National Democratic Institute....    33

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Lorne W. Craner: Prepared statement................     7
Mr. Charles W. Dunne:
  Except from Presiding Judge Makram Awad as reported in Shorouk 
    Newspaper, June 5, 2013......................................    14
  Statement of the Cairo Institute for Human Rights Studies......    17
  Prepared statement.............................................    22
Ms. Joyce Barnathan: Prepared statement..........................    30
Mr. Kenneth Wollack: Prepared statement..........................    35
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Subcommittee on the 
  Middle East and North Africa: Material submitted for the record    40
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Material submitted for the 
  record.........................................................    44

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Gerald E. Connolly: Prepared statement.............    65

 
                     AMERICAN NGOS UNDER ATTACK IN 
                             MORSI'S EGYPT

                              ----------                              


                        WEDNESDAY, JUNE 12, 2013

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 1 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Ileana 
Ros-Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself and Mr. Connolly for 5 minutes each 
for our opening statements, we will then recognize other 
members seeking recognition for 1 minute each. We will then 
hear from our witnesses. Thank you, ladies and gentlemen, for 
being here. And, without objection, the witnesses' prepared 
statements will be made a part of the record. Members may have 
5 days to insert statements and questions for the record 
subject to the length limitation in the rules. The chair now 
recognizes herself for 5 minutes.
    Over 2 years ago, the improbable happened. Millions of 
Egyptians filled Tahrir Square and streets all across Egypt, 
demanding the end of the Hosni Mubarak regime and ushering in a 
new democratic era: An era free of government corruption, free 
of police brutality; an era that would allow all Egyptians to 
exercise their freedoms of speech, expression, assembly, and 
religion. But, as we all know, the transition to a true 
democracy is often an arduous task that takes time and 
commitment, and it must be responsive to the goals and 
aspirations of those who facilitated the change.
    The Egyptian transitional government's treatment of pro-
democracy groups, like Freedom House, IRI, NDI, and groups that 
promote a free, independent press, like ICFJ, was in direct 
contradiction with the principles of democracy and with the 
goals of the revolution.
    It is clear by last week's verdict, Morsi's refusal to drop 
the charges and the new NGO law, that the freedom for these 
groups to work will only be further restricted under the Muslim 
Brotherhood-led government. These institutions and their 
employees all believed in the cause of freedom and democracy. 
They believed in the aspirations of millions of Egyptians who 
wish to cast off the oppressive yoke of totalitarianism and 
establish a free and open society. But the Egyptian Government 
feared that the people might soon turn against the government 
in the people's pursuit to end corruption and bring real 
democratic reforms. So the Egyptian authorities ransacked the 
offices of these NGOs, arrested their employees, seized their 
assets, and shut down their operations.
    It was hoped that the Egyptian officials would soon see the 
error of their ways and drop the charges and allow the NGOs to 
continue their work. However, last week all 43 defendants were 
convicted and sentenced in a case that had no basis in the rule 
of law. This verdict was politically driven and not just an 
attack on these American NGOs, German NGO Konrad Adenauer 
Foundation or their employees who come from countries like the 
U.S.A., Germany, Serbia, Norway, Lebanon, Romania, and many 
other places. This verdict was an indictment on the Morsi 
regime's assault on freedom, on human rights, on democracy, and 
the Egyptian people themselves. We must stand in solidarity 
with those who continue to seek the ideals of the revolution. 
It is no longer acceptable to send unconditional aid to a 
regime that persecutes, prosecutes, and convicts those who seek 
to aid Egyptians seeking freedom and true democracy for all of 
Egypt.
    To seek further reforms, I have introduced H.R. 4016, the 
Egypt Accountability and Democracy Promotion Act. This bill 
would condition our economic assistance to Egypt in order to 
advance U.S. national security interests by ensuring that Egypt 
protects freedom, protects human rights, the rule of law, civil 
society organizations, and upholds the 1979 Egypt-Israel Peace 
Treaty because if we don't condition our aid, we risk sending 
the wrong message yet again to countries in the region and 
around the world that the United States will not only tolerate 
this unabashed attack on democratic values, but we will not 
hold these violators accountable for their repressive actions.
    When I was chair of the full Foreign Affairs Committee, the 
administration wanted to send over $500 million in taxpayer 
money, American taxpayer money, to Morsi. I placed a hold on 
this because of the repressive actions of the Muslim 
Brotherhood-led government and because of its crackdown on 
civil society and the rule of law.
    I was disappointed to hear Secretary Kerry announce earlier 
this year in Cairo that the United States would provide an 
additional $250 million in assistance to Morsi in Economic 
Support Funds. We cannot afford to send a mixed message at this 
delicate juncture. We must send a strong unified signal if we 
are to see Egypt realize the goals of the revolution.
    The United States must call on Morsi to immediately pardon 
all 43 individuals and allow the NGOs to reopen without further 
harassment from government authorities. We must also impress 
upon him the importance of abandoning his proposed NGO law that 
would restrict the operations of NGO groups across Egypt even 
further, allowing for the possibility of even more of these 
sham trials to occur. And we must insist that the Muslim 
Brotherhood-led government implement real democratic reforms or 
risk losing U.S. assistance. The choice is clear.
    With that, I am proud to call upon Mr. Connolly for his 
opening statement. Thank you, Gerry.
    Mr. Connolly. Thank you so much. Thank you so much, Madam 
Chairman. And let me join with you in the expression of 
sentiments of grave concern, if not disgust, at the recent 
developments in Cairo.
    The issue of the NGOs is not only a test for Egypt. It is 
actually a test for the United States. Will we support 
institutions we have helped create to promote democratization 
in emergent societies, not just the American employees of those 
NGOs but the Egyptian employees as well who are at great risk. 
They must know from the halls of Congress to the Executive 
Branch that they are not being abandoned and that we are as 
concerned about their fate as we are or would be for an 
American on trial.
    I was in Egypt last May, almost exactly a year ago. At the 
time, Field Marshal Tantawi was still in office. And we had had 
a meeting with the Egyptian employees of the NGOs represented 
at this table. I was struck, Madam Chairman, with how highly 
educated and highly motivated these people were. They cared 
about their country. They cared about its future. They cared 
about trying to contribute to the democratization of 
institutions that were just emerging in the post-Mubarak era.
    And, frankly, what has happened, what was happening then 
and what has happened now, were some officials, including the 
official at the time, Fayza Aboul Naga, a demagogue of the 
first order, a woman tried to prove that her previous 
association with the previous regime somehow had been cleansed 
at the expense of these NGO workers.
    Our delegation, led by our former colleague David Dreier, 
made it very clear to General Tantawi at the time that this 
issue would be a major sticking point in bilateral relations if 
not resolved. He was surprised that it was elevated to that 
level of concern. And every member of our delegation, 
Republican and Democrat, reiterated that position. Here we are 
1 year later, and we now have the guilty verdicts.
    I have long believed that the U.S.-Egyptian relationship, 
as I know you do, too, Madam Chairman, is a critical one in the 
Middle East, critical as a cornerstone, obviously, in the Camp 
David Accords, critical in the evolution of the so-called Arab 
Spring. Egypt is the largest Arab country. Outcomes there 
matter.
    The Muslim Brotherhood is struggling with how to emerge as 
a democratic force in civil society. And I understand that. And 
some patience is going to be required. But these verdicts are a 
huge impediment in our relationship, in our ability to partner 
with the Egyptian Government, whatever it is going to be. And I 
have to say it is very important for those listening in Cairo 
and, for that matter, in the halls of our State Department to 
understand that the tolerance for this here in the United 
States Congress on a bipartisan basis is next to nil and that 
there will be strong reactions here on both the military and 
economic front and in every aspect of our bilateral 
relationship until and unless this issue is addressed 
forthrightly by the Morsi government and reversed.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Good. Thank you very much, Mr. Connolly.
    And, seeing no further requests for recognition, we welcome 
our panelists here today. First, we will hear from Mr. Lorne 
Craner, no stranger to our committee, president of the 
International Republican Institute. Prior to this position, Mr. 
Craner has had a long and distinguished career in public 
service, having previously served as Assistant Secretary for 
Democracy, Human Rights, and Labor for former Sectary of State 
Colin Powell, a position for which he received the 
Distinguished Service Award from Secretary Powell. He also 
served at the National Security Council from '92 to '93 and as 
Deputy Assistant Secretary of State for Legislative Affairs 
under James Baker. Welcome, Lorne.
    Next we welcome Mr. Charles Dunne, the director of the 
Middle East and North Africa Program at Freedom House. Prior to 
joining Freedom House, he spent 24 years in the Foreign 
Service, serving all across the world, including in Cairo and 
Jerusalem. Mr. Dunne has had a distinguished career in public 
service, serving as Director for Iraq at the National Security 
Council, as a foreign policy adviser at the Joint Staff in the 
Pentagon, and as a member of the Secretary of State's policy 
planning staff, where he contributed to the development of 
initiatives to advance democracy in the Middle East and North 
Africa. Welcome, Charles.
    And we welcome Ms. Joyce Barnathan, who is the president of 
the International Center for Journalists. Prior to joining 
ICFJ, Ms. Barnathan had a long and impressive career as an 
international journalist, having covered assignments in Asia 
and Russia for Businessweek and Newsweek. She is the winner of 
five overseas Press Club awards as well as the National 
Headliner Award and currently serves on the Steering Committee 
of the Global Forum for Media Development. Welcome.
    Finally, we welcome Mr. Kenneth Wollack, the president of 
National Democratic Institute, where he has served in that 
capacity since 1993. Before joining NDI, Mr. Wollack co-edited 
the Middle East Policy Survey and wrote regularly for the Los 
Angeles Times. He has served on task forces sponsored by 
various organizations, including the Brookings Institute, the 
United States Institute of Peace, and the Council on Foreign 
Relations. Mr. Wollack currently is a member of the Advisory 
Committee on Voluntary Foreign Aid and has served as a chairman 
for the U.S. Committee for the United Nations Development 
Program. And our kids are somehow intertwined. That is a real 
claim to fame.
    So thank you to our excellent set of panelists. Lorne, we 
will begin with you.

    STATEMENT OF THE HONORABLE LORNE W. CRANER, PRESIDENT, 
INTERNATIONAL REPUBLICAN INSTITUTE (FORMER ASSISTANT SECRETARY 
             FOR DEMOCRACY, HUMAN RIGHTS AND LABOR)

    Mr. Craner. Well, Chairman, members of the committee, I 
want to first thank you for your continued focus on the Middle 
East and for the unwavering interest and support you have shown 
to all of us at this table.
    I wish today's hearing was a progress report on Egypt, but 
it is not. The Egyptian transition at this point can only be 
described as a mess. And it is moving in an ever more negative 
direction. You have focused this hearing on ``American NGOs 
Under Attack in Morsi's Egypt.'' So let me begin by describing 
how Morsi's Egypt is doing compared to other countries.
    Political transitions in the Middle East will take time, as 
they have in other regions. While we must, as Mr. Connolly 
said, have a long-term outlook, it is also true that key 
milestones along the way impact the pace and bad decisions 
along the way can fundamentally alter the direction of the 
transition. One need only think of the contrast between Poland, 
Hungary, and the Czech Republic and Bulgaria, Romania, and 
Serbia in the mid-1990s.
    Comparisons between the speed and scale of reform in 
Tunisia and Egypt--their revolutions occurred almost 
simultaneously--are, likewise, fair. It is true that Tunisia 
started with a smaller, more homogeneous, more educated 
population and that Ben Ali, like Mubarak, an authoritarian, 
left his country with less poverty and a better economy. But 
those differences cannot account for Egypt's failure to keep up 
with the pace or scope of change in Tunisia on issues I detail 
in my written testimony, from Cairo's failure to safeguard the 
rights of women and minorities to placing the executive above 
judicial review to significantly less freedom of expression, to 
the government advocating a harshly restrictive civil society 
law, to attacks on domestic and, yes, foreign NGOs.
    Not all Arab Spring transitions have gone as poorly as 
Egypt. There are worse transitions. Syria comes to mind. But 
certainly the transitions in Tunisia and, I would argue, even 
Libya are going better than Egypt's. The shrinking political 
space we see in Egypt is not a common feature among Arab Spring 
countries. Going after domestic and foreign NGOs is not a 
common feature among Arab Spring countries. This brings me to 
our issue: The Egyptian court's trial and guilty verdicts.
    I will not detail the saga of the last 18 months. We all 
know that quite well. You will recall that the charges against 
us were that we were not registered organizations in Egypt, 
despite our effort since 2006 to do so, and that we did not use 
the type of bank account available to registered organizations.
    When we last appeared before you, we related the testimony 
of the person who, as you know, started this sad saga, Egyptian 
Minister of Development Fayza Aboul Naga, that we were engaged 
in a neo-colonial plot at the behest of Israel to divide Egypt. 
This nonsense became an integral part of the prosecution's case 
in court. Our respective attorneys presented a defense based on 
the merits of the charges against us entering evidence and 
witness testimony about the true nature of our work, 
demonstrating that the Egyptian Government had full knowledge 
of it and that we had made extensive efforts to become 
registered since 2006.
    A report completed by Egypt's own Shura Council in 2012 
placed the onus of the international registration process on 
mismanagement by the Egyptian Government.
    And yet, despite an abundance of objective information 
confirming the weakness of the charges, the trial court on June 
4th in disjointed verdicts found all 43 defendants to be in 
violation of Egyptian law and imposed harsh penalties from 1 to 
5 years in jail with hard labor and ordered that our 
organizations be closed in Egypt. These verdicts obviously have 
a direct negative impact on our organizations and staff.
    Moreover, the verdict is part of a broader trend in Egypt. 
It did not occur in isolation. It is a parallel issue to the 
current draft NGO law and other discouraging developments I 
referred to earlier.
    For our partnership with Egypt to endure, we must have a 
willing partner. We all understand Egypt is in the early stages 
of transition and mistakes will be made. And, yet, it is 
difficult to ignore the consistent failure by Egypt to make the 
positive steps toward building a democracy that we see in 
places like Tunisia or Libya.
    To overlook the current assault on democracy would send the 
wrong message. Instead, the U.S. must strongly and consistently 
support popular demands for transparency, accountability, and 
freedom at this critical Middle East crossroads. This means a 
clear continued commitment by the administration and the U.S. 
Congress to those working under increasing duress for a 
democratic Egypt.
    Thank you.
    [The prepared statement of Mr. Craner follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much. That is very 
depressing.
    Mr. Dunne?
    Mr. Dunne. Thank you very much, Madam Chair. And thank you 
to the members of the subcommittee.

 STATEMENT OF MR. CHARLES W. DUNNE, DIRECTOR, MIDDLE EAST AND 
                  NORTH AFRICA, FREEDOM HOUSE

    Mr. Dunne. It is an honor to appear before you here today. 
Our president, David Kramer, would be here. He expresses his 
regrets, but we have a board of trustees meeting at the same 
time and hopes you understand.
    As you possibly know, I am personally affected by the NGO 
case in Egypt. For the last year and a half, I was defendant 
number 30 in the case against Egypt and U.S. NGOs. We work in 
the field of democracy promotion and human rights. Today, I 
stand convicted, sentenced to 5 years in prison and with a 
fine. Freedom House's office in Cairo has been shut.
    This comes as a shock to me. As you noted, Madam Chair, I 
spent 24 years in the U.S. Foreign Service, three of them as a 
diplomat in Cairo, where I worked very closely with the 
Egyptian military. As long as this sentence stands, my ability 
to travel freely and work in my chosen field anywhere in the 
world stands in question. Six of my Freedom House colleagues 
have also been convicted in this case. And I stand here today 
in solidarity with them and hope that the views that I express 
will reflect their views and their situation as well.
    Now, we had no doubt from the beginning that the raids and 
the trials were politically motivated. This was contained in 
the explanation from the judges in the case that was reported 
in the Egyptian press. In this decision, they leaned heavily on 
worn-out nationalist conspiracy theories with a heavy dose of 
anti-Israel sentiment thrown in. The explanation said,--and I 
quote, ``Funding has become a new form of control and 
domination, a soft imperialism pursued by donors to destabilize 
beneficiary countries and to serve American and Israeli 
interests.''
    With your permission, Madam Chair, I would like that 
statement entered into the record.
    Ms. Ros-Lehtinen. Without objection.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Dunne. Thank you.
    As this decision makes clear, there can be no doubt that 
the politics and not the law was what drove and decided this 
case. Secretary Kerry noted in his June 4th statement on this 
the decision was clearly politically motivated. So it is now 
obvious that we cannot expect to find justice through further 
legal proceedings. The only viable solution in this case is a 
political one. And we look to President Morsi to exercise his 
powers to wipe clean the slate for all 43 NGO convicts in this 
case. On this, the U.S. Government should weigh in at the 
highest levels. And we certainly hope that the Members of 
Congress will echo and support this as well.
    Now, the Egyptian Government for its part likely expects a 
return to business as usual once the current furor over the 
verdicts subsides. Just last month, Secretary Kerry quietly 
waived conditions on military aid, despite the fact that Egypt 
clearly has not met the conditionality that Congress has 
written into the law, requiring Egypt to ``implement policies 
to protect freedom of expression, association, religion, and 
due process of law.'' As I understand it, the money has not yet 
been transferred to the Egyptians' account and should not be in 
our view under present circumstances. In many ways, the 
deteriorating human rights situation in Egypt is worse than it 
was at points under President Mubarak.
    So the United States should take three clear steps: To 
persuade President Morsi to reverse course and get Egypt's 
democratic transition back on course. First, U.S. should 
reconsider delivery of aid to the Egyptian Government until all 
43 NGO workers are clear and the organizations that were closed 
are allowed to reopen and operate freely.
    Second, a top-to-bottom review of the U.S. relationship 
with Egypt, including the assistance and support for the IMF 
loan package, should be conducted by the State Department and 
approved by Congress before any further money is appropriated. 
The relationship cannot be allowed to operate on autopilot 
given the dramatic political changes in Egypt and the region.
    Third, the U.S. Government must consistently speak with a 
louder voice and at the highest levels about the importance of 
civic and political rights and condemn abuses whenever it finds 
them. The U.S. should make clear that it will continue to 
support funding for the free operation of civil society and its 
international partners.
    Twenty Egyptian organizations, human rights organizations, 
issued a statement June 6th through the Cairo Institute of 
Human Rights Studies sharply criticizing the verdict and 
expressing complete support for the defendants in this case. 
This characterized this as a blow against the democratization 
process in Egypt.
    And, again, with your permission, Madam Chair, I would like 
to have that statement entered.
    Ms. Ros-Lehtinen. Without objection.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Dunne. So it is clear that, despite Egyptian Government 
propaganda, our organizations do have willing partners in 
Egypt, willing to do the hard work of democracy on the ground. 
We look forward to the day when we can cooperate with them once 
more.
    Finally, I want to note that the NGO case has come with a 
steep human cost that the staffs of all of these organizations 
and others. The staffs of all these four organizations and 
others, 13 other Egyptian organizations, were rated on the same 
day ours were, by the way.
    Lives have been disrupted, careers threatened, and deep 
emotional stress imposed. To the Egyptian Government, the 
people involved in this case are mere pawns in an internal 
power struggle. To me, my Egyptian staff members are dear 
friends and colleagues. I pay tribute to their courage and 
determination to build a better Egypt.
    Thank you.
    [The prepared statement of Mr. Dunne follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much.
    Ms. Barnathan? Thank you.

  STATEMENT OF MS. JOYCE BARNATHAN, PRESIDENT, INTERNATIONAL 
                     CENTER FOR JOURNALISTS

    Ms. Barnathan. Madam Chairman and members of the committee, 
thank you for inviting me to testify about the terrible verdict 
in Egypt.
    Just as background, the International Center for 
Journalists' work in Egypt and around the world is aimed at 
raising professional standards. We offer practical, hands-on 
programs that use the latest digital tools. And we aim to help 
journalists produce responsible, ethical coverage.
    When we first learned of the startling charges against five 
ICFJ employees, we worked with our really excellent lawyers to 
present overwhelming evidence that the allegations were false. 
Up until the verdict, our lawyers were convinced of an 
acquittal. The decision to convict all of the NGO workers is a 
politically motivated move, and it does not reflect on the work 
of ICFJ in Egypt. But I want to highlight the human toll here. 
This decision is ruining lives.
    What do you say to a distinguished journalist like Yehia 
Ghanem, who is right behind me, whom we hired to lead our new 
program, which hadn't even begun, and to finish the 
registration process? He got a 2-year sentence and cannot 
return home to his wife and three children and the country he 
loves without going to prison. What do we say to his children, 
who cry daily because they miss their father? One of his kids 
had both arms broken in school for defending his father's 
honor.
    Our other Egyptian employee, who is also here, Islam 
Shafiq, is separated from his pregnant young wife. Though his 
1-year term was suspended, is it really safe for him to return? 
The court labeled the three U.S.-based defendants, Patrick 
Butler, Natasha Tynes, and Michelle Betz, as fugitives, though 
they were not based in Egypt and they were not there when the 
charges were filed. They got 5-year terms.
    These people's livelihoods depend on travel. Labeled as 
convicts, will they be arrested and sent to Cairo by a nation 
that has an extradition treaty with Egypt?
    There is also the societal impact. Egyptian court officials 
say they are going to pursue anyone who provided help to NGOs, 
and they want to investigate other civil society groups.
    As others have mentioned, the draft of a new NGO law, by 
many accounts, including the State Department's, is onerously 
restrictive. There is a chilling effect that has frozen the 
hopes of Arab Spring in Egypt.
    For ICFJ, this politically motivated decision is 
particularly painful. We are not a political organization. We 
do not take political decisions or offer political advice. ICFJ 
has been working in Egypt since 2005 with the complete 
knowledge of the government. We applied for registration from 
the start, and shortly before our offices were raided, we gave 
the government full details about all of our programs. We have 
always had formal contracts with prestigious universities and 
news organizations, which are registered to carry out our 
activities.
    And, in 2011, as we have noted before, our lawyer 
recommended that we open an office, a legal requirement for 
registration. We had conducted no activities in the office 
while we waited for approval.
    At the heart of this matter is a dispute, as we all know, 
between the U.S. and Egyptian Governments over funding for NGO 
activity. As others have said, the Egyptian minister of 
international cooperation was angered that U.S. gave funds to 
NGOs, instead of to her ministry. ICFJ and its employees were 
not aware of this dispute.
    The verdict is full of loaded language. The court claims 
that NGOs may appear to support human rights and democracy, but 
the underlying goal is to ``undermine Egypt's national security 
and lay out a sectarian map that serves U.S. and Israeli 
interests.'' The judges also described NGO work as a new form 
of ``soft imperialism practiced by donors to destabilize, 
weaken, and dismantle'' Egypt. How on Earth do we even relate 
to any of these charges?
    The ICFJ defendants did nothing wrong by training 
journalists. We are discussing with our lawyers how to appeal 
this verdict. But how can we be confident in the appeal process 
when judges simply ignore the facts? Our employees also risk 
getting thrown in jail if they return home for an appeal. And 
those tried in absentia have no legal recourse.
    Egypt's news media have made groundless attacks on our 
defendants. And these distortions show precisely why Egyptian 
media needs ICFJ's assistance more than ever. I think the real 
victims are the Egyptian people, who will likely see further 
backsliding in democracy and freedom of expression.
    Members of Congress visited Egypt during the trial and 
assured our staff there that they had nothing to worry about, 
the U.S. Government would protect those working on programs it 
funded, they said. We urge Congress now to hold fast to that 
promise. Please use all means possible to get these unjust 
verdicts overturned. We need a pardon so that good, decent 
people like Yehia Ghanem and Islam Shafiq can recapture their 
lives. It would be a true shame if Egyptian citizens now feared 
that working to build democratic institutions will only land 
them in jail.
    Thank you.
    [The prepared statement of Ms. Barnathan follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Wollack?

     STATEMENT OF MR. KENNETH WOLLACK, PRESIDENT, NATIONAL 
                      DEMOCRATIC INSTITUTE

    Mr. Wollack. Madam Chairman and members of the 
subcommittee, thank you for this opportunity to testify today 
about the conviction in Egypt of the current and former staff 
members of NDI, who, along with counterparts from the IRI, 
Freedom House, the ICFJ, and Konrad Adenauer Foundation, were 
sentenced last week to prison. I also want to thank you and 
many of your colleagues for the statements of support that you 
have issued for those unjustly convicted. And we wish to thank 
as well the many Egyptian civic organizations and political 
leaders who have issued statements of support.
    We were all shocked and deeply distressed by the verdict. 
These individuals did nothing wrong, and they should be 
praised, not prosecuted, for the work they did to support 
Egyptian democracy. In NDI's case, there are 15 individuals who 
have been the victims of this prosecution: 5 Americans, 4 
Egyptians, 3 Serbians, 2 Lebanese, and 1 Romanian. It has been 
an ordeal for all of them, disrupting their personal and 
professional lives, as a number of them grappled with the 
trauma of armed raids on our offices, an abrupt work stoppage, 
an intense government-led media campaign against them, hours of 
interrogation by government authorities, a dragged-out trial, 
and now a jail sentence.
    These proceedings began under the military-led government 
and were instigated, as Mr. Connolly noted, by a holdover 
cabinet member from the Mubarak regime. Our alleged crime was 
operating an unlicensed branch of an international organization 
and receiving funds from the United States Government without 
the approval of the Egyptian Government.
    While the motivations for the original investigation and 
charges remain unclear, a central issue was a longstanding 
conflict over who controls U.S. assistance to Cairo. Those 
wrongfully convicted were ultimately the victims of an 
intergovernmental dispute between the United States and the 
then Egyptian Government. The Egyptian view had been that such 
assistance should be passed through Egyptian Government 
ministries and be used only for programs and groups sanctioned 
by government authorities.
    By providing assistance, often through people-to-people 
programs, the U.S. sought to assist the emergence of a vibrant 
civil society and political parties whose participation in the 
country's evolving political, social and economic development 
could lay the foundation for a functioning democracy.
    NDI fulfilled all legal requirements for registration 
through the Ministry of Foreign Affairs in 2005, shortly after 
we opened an office in Cairo. And Article Six of the relevant 
Egyptian law states that if a registration application is not 
formally rejected within 60 days, it will be considered 
approved. NDI's application has never been rejected: Verbally 
or in writing. In fact, one government ministry involved in the 
registration process wrote that NDI's activities complied with 
Egyptian laws.
    Ironically, 1 month prior to the raid on our offices, NDI 
and IRI were formally invited by Egyptian authorities to 
observe the country's parliamentary elections. NDI's 
nonpartisan programs in Egypt always responded to local demands 
and requests for technical assistance. We shared international 
experiences by leaders who were instrumental in their own 
democratic transitions from such diverse places as Chile, 
Indonesia, and Poland. We conducted programs on the development 
of political parties. And we assisted civil society groups 
engaged in nonpartisan election monitoring and civic and voter 
education.
    If there was any doubt about the political nature of the 
judicial proceedings, it was dispelled by the judges themselves 
in a summary of the verdict provided to journalists last week. 
As has been noted earlier, they described foreign assistance 
as, and I quote, ``a form of new control and domination and a 
less expensive form of soft colonialism pursued by donor 
countries to destabilize the security and stability of the 
receiving countries. This weakened Egypt's position, regionally 
and internationally, and bowed to the will of [the] U.S.A. in 
building bridges to normalize relations with Israel.'' The 
judges claimed that, ``One cannot imagine . . . that the U.S.A. 
or other countries supporting the Zionist entity has any 
interest or a genuine desire for establishing a real democracy 
in Egypt.''
    Coming in tandem with last week's convictions is the 
referral of a new draft NGO law that is being discussed in the 
Shura Council. And it is far more restrictive than the one 
under which our employees were charged and convicted. This 
should be a time for active civil engagement. Last week's 
verdict and the proposed NGO law could create the opposite 
effect.
    We know that the relationship between the Governments of 
Egypt and the United States is complex and important to 
regional security. We also know that democratic development 
leads to long-term economic and social advancement that 
improves quality of life, spurs trade, advances peace, and 
eliminates conditions that fuel extremism.
    We hope the international community will not give up on a 
Egypt's democratic transition. The issues it presents and 
Egypt's place in the world are too important.
    Since NDI's founding in 1983, our staff members, who 
represent 96 nationalities, have repeatedly overcome the 
challenges of working in difficult and sometimes hostile 
environments. But not once in those 30 years has any of our 
staff ever been charged, tried, and sentenced to prison.
    Foremost on our minds today are the innocent people caught 
up in this highly political process. We believe there should be 
justice for them, which can still be accomplished through 
legal, constitutional means, including a pardon.
    In closing, I would like to thank the many Members of 
Congress and officials in the administration who have worked 
and continue to work tirelessly to help resolve this crisis. 
Thank you, Madam Chairman.
    [The prepared statement of Mr. Wollack follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you. And thank you to each and 
every one of you. Excellent testimony.
    Without objection, I would also like to include for the 
record testimony provided to our subcommittee by Michelle Betz, 
former contractor for the International Center for Journalists.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                              ----------                              

    Mr. Connolly. Madam Chairman?
    Ms. Ros-Lehtinen. Yes?
    Mr. Connolly. Can I also ask unanimous consent to insert at 
this point in the record a copy of the Connolly-Wolf letter to 
President Morsi that has been signed, including----
    Ms. Ros-Lehtinen. Without objection.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Connolly. I thank the chair.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Connolly.
    You talked about the personal toll. All of these folks have 
felt this impact deeply. Your organizations have felt the 
impact. Egyptian civil society has felt the impact. And, seeing 
as you have experience and firsthand knowledge of what has 
really happened there on the ground, can you tell us where you 
think in a broader picture, where you think Egypt is going 
under Morsi? Which direction is it headed toward? Is there a 
chance for democracy left? Is that window rapidly closing? What 
should U.S. funding priorities in Egypt with respect to 
supporting civil society, the rule of law, building political 
parties? What role do you see us having there? And do you 
expect the pardon to come for all of the folks who have been 
sentenced? Do you expect the new NGO law to be implemented, to 
be passed, and that will further restrict your activities? So 
thank you if anybody would like to take a stab at either parts 
of those. Mr. Dunne?
    Mr. Dunne. Thank you, Madam Chair.
    As far as where Egypt is going broadly, as Lorne mentioned 
in his testimony, it is a very troubled democratic transition, 
which I personally would describe as a suspended democratic 
transition at the moment.
    I still have a lot of hope for Egypt. A huge amount of 
political space has been opened up by the revolution. There are 
different parties contesting that space. We cannot count out 
the liberals and secularists, whose views, after all, 
underpinned the Tahrir Square revolution. It will be a long 
process, and it will be a messy process. But it does require 
support from outside, political support and perhaps some aid 
support, especially for civil society.
    As you noted, the environment for civil society has become 
extremely difficult. And just how we can operate there, any of 
our organizations as well as Egyptian organizations, especially 
in light of this new NGO law, is very problematic. We are 
trying to think of some creative ways to engage civil society. 
Maybe that involves advocacy, instead of work on the ground 
with organizations, but we are trying to figure that out 
ourselves right now.
    We have no expectations, our organization does not, of the 
legal process, including a pardon. We are hopeful that one will 
be granted, but that is what we are trying to think about right 
now.
    Ms. Ros-Lehtinen. And you are convict number 40?
    Mr. Dunne. Defendant number 30.
    Ms. Ros-Lehtinen. Defendant number 30. Yes.
    Mr. Dunne. I was a fugitive at the time. Now I am a 
convict. So yes.
    Ms. Ros-Lehtinen. All right. Thank you.
    Lorne, would you like to take a stab at it?
    Mr. Craner. You know, I have always said these transitions 
in the Middle East are going to take 10, 15, 20 years. This is 
not a very encouraging start for Egypt.
    I was just thinking while Charles was talking, if you tried 
to think of a central European analogy, maybe you would think 
of Serbia, where the revolution was hijacked early on in the 
post-Soviet era. That was not a very encouraging story.
    I think the issue for us is 5, 7, 10 years from now, when I 
don't think the Egyptian economy will have taken off given how 
it is being run. And Egyptians are looking for new kinds of 
policies. Will those be available to them or will they be stuck 
with a government that is repressive and isn't producing 
anything economically? And I think it is important that the 
U.S. stay engaged and Europe and others to make sure that the 
Egyptian people do have choices if they want them, that it is a 
more open system.
    In terms of our particular case, a court appeal is only 
available in Egypt to people who were present for the trial. 
And you will recall that the foreigners, at the behest of the 
State Department--and we agreed with that at the time--left 
Egypt and were not present for the trial. The only way a 
foreigner can file an appeal is to present themselves at Cairo 
Airport, begin serving their 5-year sentence, and then they are 
free to appeal, to begin an appeal. And obviously that is not 
something we wish upon our staffers.
    Ms. Ros-Lehtinen. Mr. Wollack, let me see if I----
    Mr. Craner. So an appeal is not a possibility.
    Ms. Ros-Lehtinen. I see that.
    Mr. Wollack. Madam Chairman, we are all in the optimism 
business. And ultimately we believe that people all over the 
world--and that includes the people of Egypt--want the same 
thing. They want to put food on the table. They want to have 
shelter. They want to have jobs. And they want to have a 
political voice and a stake in their future. And every public 
opinion poll in Egypt and elsewhere shows that. So I believe in 
the long term that will, that desire, those expectations, of 
the Egyptian people will bear fruit.
    Lorne mentioned Eastern Europe. Let's not forget that 10 
years after the fall of the wall, the war in Yugoslavia was 
just beginning. Milosevic was still in power. But these do take 
a long time. Sometimes generational changes have to take place.
    But there are elements, I believe, some within the new 
government, some within the previous government, and now we see 
in the judiciary, that represent a throwback to another era. 
And I think this represents Egypt's past isolation and insular 
outlook. I think that there are elements in the government, 
elements in other sectors of society that have a very different 
view, and I just think that we have to stay engaged and support 
those who want to build a democratic future.
    Ms. Ros-Lehtinen. Thank you very much. Thank you to all of 
you.
    And I am sorry I am out of time. Mr. Connolly is 
recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    And I am picking up on Mr. Wollack's last comment to stay 
engaged but, at risk of being imprisoned or tried or 
humiliated, I think you are going to find it difficult to 
recruit folks in Egypt or from outside of Egypt to want to put 
themselves at that kind of risk, especially so long as this is 
unresolved.
    I will say I would like to read into the record, Madam 
Chairman--this is a shocking statement. I think----
    Ms. Ros-Lehtinen. Without objection.
    Mr. Connolly. Well, no. I am going to read it into the 
record.
    Ms. Ros-Lehtinen. Oh, you are going to read it?
    Mr. Connolly. This is from the verdict: ``The United States 
and supporters of the Zionist entity felt fear and horror,'' 
meaning about the revolution. ``The United States reacted by 
throwing all of its weight against this change, but its old 
tactics could not suppress it. The issue of U.S. funding took 
on new dimensions in an attempt to contain the revolution, to 
twist its path and direct it to serving its own interests and 
the interests of Israel.'' That is from the verdict. It is hard 
to read that statement and to conclude, nonetheless, we are 
allied powers, that we are partners in the peace process in the 
Middle East, that we share common values or some basis for 
common values about democracy and civil society.
    This statement by a court that convicted 43 people, 
including Americans, says we were actively conspiring against 
their revolution, that we were using these spigots, aid 
spigots, to do just that and that we were foiled. And, 
therefore, one must at least infer that the convictions are 
part of their foiling us. That is chilling, and that goes far 
beyond some misguided instructions to a court in Cairo. I am 
very troubled by that. And I welcome any observation from the 
folks at the table. And I will ask one other question to throw 
it out there since all of you mentioned pardon.
    I am concerned that if we go down the route of pardon--and 
I take Mr. Craner's point of view. There may not be any other 
legal options in the system of jurisprudence in Egypt at this 
time to vacate a guilty verdict. But if you go down the route 
of pardon, you are conceding the basis of the conviction. And I 
as a Member of Congress am not willing to do that.
    I am not going to put myself in your position, but there is 
no basis for this conviction. And we must not concede that. I 
wonder what your thoughts are about that issue with respect to 
a pardon, those two issues. Quick. We are running out of----
    Ms. Barnathan. On the pardon, this was a political problem 
started by political forces. It is going to get solved, if it 
gets solved, by political means. The only tool we have in our 
arsenal now, short of a very imperfect appeals process, is to 
get a pardon. I don't know of any other options. And I think 
that a pardon will not materialize out of thin air. As I said, 
it was a political decision. We need a political solution.
    Mr. Wollack. I would just say, Mr. Connolly, that every 
aspect of this process--from the interrogations to the raids on 
the offices to the press conferences, statements by Egyptian 
authorities to the trial--every aspect of this process, was a 
political one. It had very little to do with legal issues. And 
the interviews that were given by the judges sort of laid bare 
the political nature of the entire process. And this wildly 
conspiratorial view of the outside world was shocking, I think, 
for everybody when they read the remarks of the judges, as you 
did.
    I agree with you completely that all the people involved 
are totally innocent. And the question becomes what 
alternatives there are. And when one is looking for ways in 
which people are not placed in jeopardy, we are also looking 
for the road of least resistance, of trying to achieve 
something that does not put people in legal jeopardy or worse.
    Mr. Dunne. Sir, if we have time, I would like to comment on 
that. I mean, everybody that I know who works on and is a 
specialist in the Egyptian affairs was, likewise, shocked by 
the language of the verdict. And so it comes as a surprise to 
everyone and is a very troubling statement, I found.
    Just the other thing I would say on the legal route, I 
understand, congressman, your concerns about the pardon route 
but, as my colleague said, that seems to be the only route 
available to us now. For me, I wouldn't have the right of 
appeal. I would have to go back, go to jail, and then I would 
get a retrial. The last one lasted about a year and a half. And 
that is not an appealing route for any of us who were out of 
the country when the verdicts were issued.
    Mr. Connolly. Thank you.
    Mr. Craner. Just one last thought on what you were 
addressing, which is how the judges explained themselves. It is 
not only the Egyptian judicial system that appears to believe 
this, but, again, I would encourage you to go back and read the 
testimony of the woman through whom hundreds of millions of 
dollars of American aid flowed, that the Americans were engaged 
in a neo-colonial plot at the behest of Israel to divide Egypt. 
That is literally the person directly receiving our aid.
    Mr. Wollack. I should say also the judges claim that they 
accepted the validity of her testimony during the trial.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. Excellent 
questions and great answers.
    Dr. Yoho, my Florida colleague, is recognized.
    Mr. Yoho. Thank you, Madam Chairman.
    I appreciate you guys being here. You know, it is hard. I 
just feel so bad for the people that are in those 43 NGOs that 
have been convicted. With the Arab Spring and this flowering we 
were supposed to have democracies and all this, but obviously 
it is not working. In the old guard with Mubarak, when we gave 
aid, you could pretty much anticipate what we were going to 
get, you know, because we had had a working relationship with 
them for 30-40 years. But with the new leaders emerging with 
the Muslim Brotherhood, we don't know the ground rules. And so 
we don't know how they are going to respond to anything we do.
    And one of my questions is--and I would like for you all to 
briefly answer this--is, what do you see happening to the 1979 
Egyptian-Israeli peace treaty. If you could answer that real 
quickly?
    And then are you recommending that the U.S. should stop 
pouring aid to Egypt until they release the NGOs? And if so, 
what effect is that going to have on the NGO members that are 
there? Is that going to make the situation worse?
    And then you talked about the success in Tunisia. Why, in 
your opinion, is Tunisia proceeding favorably when Egypt is 
not? I would like to hear your statements on that. And if you 
could take 30 seconds on each one, it would be great.
    Mr. Dunne. Thank you very much for those questions, 
congressman. They are great ones.
    With regard to the 1979 peace treaty, when I was stationed 
in Cairo, I had the opportunity to be in meetings with the 
defense minister and other senior staff members, who later 
became the rulers of the country. And it was very clear from 
all of these interactions and I think is today that they are 
totally uninterested in any violations of the peace treaty. 
They want to maintain that peace with Israel, in part, because 
a war with Israel would be a disaster. And they couldn't 
sustain it without U.S. military assistance in such a conflict. 
So I think that is safe. I mean, the Morsi government has made 
very clear that they wanted to have some readjustments around 
the margins of the basics of that peace, but so far that simply 
hasn't happened.
    In terms of our recommendations on stopping aid, Freedom 
House takes a position that aid should be suspended while the 
relationship is reconsidered with the administration and the 
Congress because the relationship has not changed substantially 
in the last 30 years, but it needs to change because of the 
important changes that have occurred in the region.
    And as far as Tunisia, the ruling Ennahda party, there is 
also an Islamist party, but they have consistently taken the 
view that there needs to be consensus politics in Tunisia. All 
parties have to be included in the process of drafting a new 
constitution and ruling the country. That has made for some 
very slow executive decision-making and a delay in the 
constitution, but it has also helped to have other parties feel 
a sense of conclusion in this. The Muslim Brotherhood, on the 
other hand, is ruling in sort of a majoritarian way.
    Mr. Yoho. Right.
    Mr. Dunne. We won the election. We make the rules. And I 
think that is a key difference there.
    Mr. Yoho. Okay. Next?
    Mr. Craner. I think on Tunisia, that Tunisia started out 
with a very strong liberal base. It was a highly educated 
population. There is certainly, as we saw in the election, a 
strong Islamist base as well----
    Mr. Yoho. Right.
    Mr. Craner [continuing]. From the interior. But I think 
there has been a willingness and an understanding that 
compromise is necessary, as Charles said, that it is not a 
winner take all system. I don't mean to say that Tunisia is a 
paradise right now. It is not.
    Mr. Yoho. Right.
    Mr. Craner. They had a political assassination earlier this 
year. A government fell. But when I was there about 6 weeks 
ago, I got the sense that people have looked over the cliff. 
And what they saw at the bottom was Egypt and Syria. And 
Tunisians kind of looked and said, ``That is not how we want 
our country to end up.''
    Mr. Yoho. Okay. And you also feel that they will honor the 
Israeli-Egypt peace treaty?
    Mr. Craner. I understand from news reports that that is 
what they are saying.
    Mr. Yoho. Okay. Yes. Ma'am?
    Mr. Wollack. I would----
    Mr. Yoho. Sir?
    Mr. Wollack. I would just make a couple of points, 
congressman. First, I would caution against looking back at the 
Mubarak regime with nostalgia. And I think there is always a 
temptation to do that; but I think that it was the abuses of 
the Mubarak regime, including some of the rhetoric, the same 
type of rhetoric, that we have heard today that drove the 
revolution.
    Second, I do believe that the peace treaty will hold 
because I think it serves the interests of both Egypt and 
Israel.
    Also, with regard to Tunisia, I think there are two 
ingredients here. One is leadership. And the second is the 
understanding of a coalition government, that there was a need 
to form coalitions with different political ideologies. And I 
think that has helped the trajectory in Tunisia in terms of 
being a more inclusive process, despite all of the current 
challenges that are happening in the country.
    Mr. Yoho. Okay.
    Ms. Barnathan. I was going to just add that you mentioned 
that we don't know the ground rules. I am not an Egypt expert, 
but I think it is very complicated in-fighting domestically as 
well. And how that decision played out domestically is 
something worth exploring because the judiciary seemed to take 
the word of a Mubarak-era holdover as the basis for this trial, 
which indicates a certain political bent, which may or may not 
be the political bent of the current government. So we don't 
know whether the judiciary and the government are also at odds 
in this thing, and it is very complicated. And it is worth 
exploring.
    Mr. Yoho. Okay. Thank you. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho.
    Mr. Schneider of Illinois is recognized.
    Mr. Schneider. Thank you, Madam Chair. And thank you to the 
witnesses for your time here today but also for your work.
    A little over 2 years ago, when the events started to 
unfold in Egypt, I think we all looked there with hope and 
anticipation for a prospect for a new destiny. And what we saw, 
the work that you were doing, other NGOs, that for there to be 
that new destiny, they were going to have to have space, space 
to engage that includes both the physical, intellectual space 
but also political space. And I think what we are seeing is 
that space closing.
    Mr. Wollack, you mentioned briefly and you were saying it 
may take 10 years. We heard the comparison to what was 
happening in Syria. But my concern in Egypt is we are seeing 
the erosion, if not destruction, of the institutions that are 
going to lead to the opportunity for a sustainable Egypt.
    And my question, real briefly, is, what can we do to help 
reinforce or make sure that those institutions are sustainable 
or survivable?
    Mr. Wollack. I would say a couple of things. I believe that 
these issues have to be elevated on the bilateral agenda. And 
in every meeting, in every setting these issues have to be 
addressed to demonstrate our continued interest in a genuine 
democratic transition and working with friends and allies and 
intergovernmental organizations to push that agenda as well, 
and to support what I believe are the hopes and aspirations of 
the Egyptian people. And I think that is first and foremost.
    Second, I think that there are many groups on the ground 
that deserve and need, continue to need, outside support. And 
we have to look for opportunities to continue to support those 
groups that did receive robust assistance in 2011. And there 
are groups now that are reaching out and want to be part of the 
rest of the world, and need and desperately seek that type of 
assistance.
    Mr. Schneider. Thank you.
    And I think this hearing in itself is evidence of that 
commitment to keep it on the agenda. I have not had the chance 
to be in Egypt, but my colleague from Virginia has. And I would 
like to defer my time to him to extend his questions he started 
earlier.
    Mr. Connolly. I thank my friend and colleague.
    We have been talking about Fayza Aboul Naga. What is her 
position currently in the Morsi government?
    Mr. Craner. She is the wife of the Egyptian Ambassador to 
Japan. And I understand she currently lives in Tokyo.
    Mr. Connolly. Good place for her. What is that, Mr. 
Wollack?
    Mr. Wollack. I think she is back in Egypt.
    Mr. Connolly. But she has no official role----
    Mr. Wollack. No, no government----
    Mr. Connolly [continuing]. In the current government? Well, 
that is----
    Ms. Barnathan. But she has clout. Look at the decision in 
the judiciary. And these are people with like minds from the 
previous regime, not the existing regime.
    Mr. Connolly. That is right. The U.S. law does circumscribe 
the $1.3 billion of military aid to Egypt. And it says, inter 
alia, that ``the Secretary of State has to certify to the 
appropriations committees in the Congress that the Government 
of Egypt is supporting the transition to civilian government, 
including holding free and fair elections, implementing 
policies to protect freedom of expression, association, and 
religion, and due process of law.''
    The convictions last week would seem to nullify any 
compliance with that provision. There are reports that 
Secretary of State Kerry recently decided to avail himself of a 
waiver provision and waive that requirement because obviously 
it could not be met and proceed with U.S. military assistance. 
In your view, is that harmful to a resolution of the issue we 
are discussing here today or is it irrelevant? Mr. Dunne?
    Mr. Dunne. Yes, congressman, I think it is harmful because 
it does signal a return to business as usual. Last year when 
Secretary Clinton issued a similar waiver, there was at least a 
spirited public debate. And there wasn't any on this because it 
was done so quietly. It was issued, as you know, on May 10th. 
So I think that those kinds of signals to the Egyptian 
Government are not going to help with the resolution of this 
case. And we need to align policy and actual acts, such as 
this, with what we are saying publicly about democracy in the 
NGO case. And so far I don't see that as having been done.
    Mr. Connolly. Thank you.
    Ms. Ros-Lehtinen. Thank you very much. Thank you.
    Mr. Meadows of North Carolina is recognized.
    Mr. Meadows. Thank you, Madam Chair. And I thank each of 
you for being here to testify but, in addition to that, for 
investing in a passion and a heart for Egypt. And, truly, the 
message needs to be to the Egyptian Government and the Egyptian 
people that, really, a stable Egypt, not one that is under our 
control or directed by us, is something we want and, quite 
frankly, something that is in the best interest of the entire 
community, both internationally and in the Middle East.
    I look forward to your comments on a couple of different 
issues. It seems like politically what we have done is we have 
gotten caught in a Catch-22, where some of us, they see us as 
supporting the Morsi government or they see us as not 
supporting the Morsi government on the ground. I was interested 
to find out that a lot of the citizens believe that we are very 
supportive of the Morsi government. And, yet, the Morsi 
government seems to think that we are not supportive of it. And 
in this Catch-22, how is that political aspect of that playing 
into what we have seen come out of their judiciary? Mr. Dunne?
    Mr. Dunne. Yes, congressman. I think you are absolutely 
right on this. I mean, the U.S. has so far given the impression 
that it is completely supportive of President Morsi and, in 
fact, the Muslim Brotherhood. Until very recently, there have 
been very few contacts between the U.S. Government and the 
people on the ground in the NGO community who are really 
looking for our support. I understand that that is changing 
significantly because of the troubles that we have had in our 
relationship. And there is much better contact between the NGO 
community and the U.S. Embassy now, which is good.
    You know, as to the effects on the legal case, it is very 
hard to parse that out. As Joyce mentioned, the situation on 
the ground is extremely complicated politically. And so----
    Mr. Meadows. I guess my point is, is this the judiciary, 
saying that, quite frankly, you know, ``We don't want to have 
anything to do with America because you are supporting Morsi'' 
or, where are we on this? And that is what it appears to be.
    Mr. Dunne. I could only add to that that there has been a 
theory circulating, which is credible to me, that the judiciary 
issued this decision or the judges in the case issued the 
decision, in part, to get Morsi in hot water politically with 
the U.S. Government.
    Mr. Meadows. Mr. Wollack?
    Mr. Wollack. I have given up trying to ascribe motives to 
people. I think this is a place where there are a number of 
different power centers, perhaps each motivated by different 
things. And, to some degree, it is like reading tea leaves. 
This is a place where the past and the present have merged, 
where people are trying to hold on to power who no longer have 
it, people who still maintain power but represent the previous 
regime, and new actors, who have never assumed governing 
authority before. And so it is very, very difficult to 
understand the reasoning behind language that is being used, 
verdicts that are being made, or the motivations behind them.
    Mr. Meadows. Do you think that the citizens and/or the 
government understand how difficult it will be for Congress to 
continue to appropriate money and continue to be involved if we 
are going back home and the people on Main Street are saying, 
``Well, why are we giving money when they are arresting people 
for things that they didn't do?'' It is already difficult. Do 
you think that they understand how much more difficult this 
will make it on Members of Congress?
    Mr. Wollack. Well, I don't know the answer to that. I don't 
want to be evasive. For us, however, we don't take positions as 
an institution on U.S. aid. And so, therefore----
    Mr. Meadows. I know you don't. We have to, though. And so I 
am looking for where this goes.
    Mr. Wollack. But I can't----
    Mr. Meadows. My time is running out. Yes?
    Ms. Barnathan. I also don't take positions, but I am not 
sure--somebody mentioned the current furor over this. I don't 
feel a current furor over this.
    Mr. Meadows. Well, it is so new----
    Ms. Barnathan. So if there isn't----
    Mr. Meadows [continuing]. But it is. And I can tell you 
that there need to be pardons or it is going to be very 
difficult for us to do anything in a positive manner in terms 
of our U.S.-Egyptian aid and going forward. It is just very 
difficult.
    I yield back. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you. Very good questions.
    Mr. Weber of Texas is recognized.
    Mr. Weber. Just 5 minutes, Madam Chair? Is that all I get?
    Mr. Dunne, you said that every one of those who were 
specialists in Egyptian affairs were shocked by the verdicts. 
What does that say about our ability to make accurate 
assessments about what is going on in Egypt?
    Mr. Dunne. Well, I would say, congressman, that sometimes 
the analysts are right and sometimes they are wrong. And in 
this case, I know that we expected certainly in Freedom House 
some sort of a mixed verdict where some people would get off, 
and others would be sentenced. I think it also speaks to the 
opacity of the judiciary and the deep political motives behind 
this trial.
    Mr. Weber. Let me follow that up, then, because I am only 
going to have 5 minutes. So one of you said--maybe I can find 
it--that they were a holdover from the former regime and the 
verdict that came out wasn't necessarily the viewpoint of the 
current regime. Is it Barnathan? Is that how you----
    Ms. Barnathan. Barnathan, yes.
    Mr. Weber. Was that you who said that?
    Ms. Barnathan. I did say that.
    Mr. Weber. Elaborate on that.
    Ms. Barnathan. Well, I just have to look. You know, as I 
said, I am not a specialist in this area, but if you look at 
what the decision was, the judiciary said they believed 
everything that this minister told them lock, stock, and 
barrel.
    Mr. Weber. Was that the lady that had gotten hundreds of 
millions of dollars?
    Ms. Barnathan. She was the one who has got the hundreds of 
millions of dollars who was part of the former regime. They 
seem to be----
    Mr. Weber. And issued an anti-Semitic remark?
    Ms. Barnathan. Sorry?
    Mr. Weber. And she issued an anti-Semitic remark?
    Ms. Barnathan. Fayza? Well, yes.
    Mr. Weber. Yes.
    Ms. Barnathan. She did. And they echoed her sentiment and 
basically made the case based on her specious testimony, which 
has no evidence and no backing behind it.
    Mr. Weber. Okay. Then you said you don't hear a furor over 
this in your exchange with my colleague over here on the right. 
Are you talking about a furor here in America----
    Ms. Barnathan. Yes.
    Mr. Weber [continuing]. Or are you talking about over in 
Egypt?
    Ms. Barnathan. I'm talking about a furor here in America.
    Mr. Weber. Okay. Go back home to Texas.
    Ms. Barnathan. Do you hear it? Do you hear it?
    Mr. Weber. We do. We hear people saying, ``Why are we 
giving money to Egypt as well as others?'' And so I kind of 
echo my good friend's comments that it is hard for us to go 
back and do that.
    Mr. Dunne, you said that the regime is going to go ahead 
and maintain the 1979 Egypt-Israel Peace Treaty because to do 
otherwise would be disastrous. Okay? Do you hold that view, 
remembering that our record of assessing this accurately is 
somewhat under suspicion? Do you hold that view if the Muslim 
Brotherhood gets into full power? And, going forward 2, 3, 4 
years, would you still hold that view?
    Mr. Dunne. Well, I couldn't predict that far in advance, 
especially since the situation politically in Egypt is so 
fluid, but, I mean, based on my personal experience, working 
there for 3 years, it is my assessment that even the Muslim 
Brotherhood will want to maintain that treaty. They might want 
to make some alterations in its terms, which would have to be 
negotiated with Israel, but they do not need the military 
trouble, the political break with the United States, and the 
diplomatic program that would come with broaching the treaty or 
significantly breaking it.
    Mr. Weber. So you are not concerned in the long-term--and I 
hesitate to use the word ``long-term'' because you are afraid 
of predicting out 2 or 3 years--long-term implications for 
Egypt? You are not concerned about that?
    Mr. Dunne. I think there are plenty of implications for 
Israel in the current political situation in Egypt. I think my 
personal view is that Israel's interests lie in a stable, 
politically democratic Egypt in the long term. I think we 
should definitely keep our eye on the treaty and what the 
Muslim Brotherhood says and does on it. I think that is 
critically important. And their feet need to be held to the 
fire on this. But at the moment, I am not concerned that they 
are likely to broach the treaty.
    Mr. Weber. Okay. Last question. Very simple ``Yes'' or 
``No,'' I hope. There are some jets that we still--are there 
four jets, six jets? How many jets do we have holding out 
there? Madam Chair, do you know?--that are due over to Egypt?
    If you had your druthers, Mr. Craner, would you hold up the 
issuance of those jets to the Egyptian military?
    Mr. Craner. Like NDI, we don't address questions of aid.
    Mr. Weber. We won't tell anybody.
    Mr. Craner. Charles.
    Mr. Weber. Yes?
    Mr. Dunne. Congressman, we do take a position on this. And, 
as I said earlier, I mean, we believe that aid to the Egyptian 
Government should be suspended pending resolution of this 
particular issue and, really, a thorough assessment from the 
ground up of what the bilateral relationship should be going 
forward.
    Mr. Weber. Okay. Ms. Barnathan?
    Ms. Barnathan. I don't feel like I can give political 
advice on this.
    Mr. Weber. Okay. Just an opinion. Mr. Wollack?
    Mr. Wollack. Again, I don't want to be evasive, but we as 
an organization don't take positions on----
    Mr. Weber. Okay. Madam Chair, I yield back 6 seconds.
    Ms. Ros-Lehtinen. Thank you very much. Those are valuable 6 
seconds.
    I want to thank the witnesses, all the members, the 
audience members who were here, and the press. We need to get 
the word out far and wide. I find that, even in my very 
international city, there is a lack of knowledge about what has 
been going on. There was an initial flurry of news stories. And 
now it is on to bigger issues as if there were any bigger issue 
than freedom, democracy, and the promotion of the rule of law. 
So thank you for the work that your members do. We will be 
working with you to do what we can, what influence we can bring 
to bear to make sure this issue is resolved in the favor of 
democracy, and because the Egyptian civil society deserves 
better.
    And, with that, the subcommittee is adjourned.
    [Whereupon, at 2:15 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
